<html>
<title> - ASSURING THE SAFETY OF DOMESTIC ENERGY PRODUCTION: LESSONS LEARNED FROM THE DEEPWATER HORIZON OIL SPILL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                    ASSURING THE SAFETY OF DOMESTIC
                   ENERGY PRODUCTION: LESSONS LEARNED
                  FROM THE DEEPWATER HORIZON OIL SPILL

=======================================================================

                                (112-58)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 2, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-098 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman
DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)












                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Caldwell, Stephen L., Director, Homeland Security and Justice, 
  Government Accountability Office...............................     6
Rufe, Vice Admiral Roger, Jr., (Retired), Chair, Incident 
  Specific Preparedness Review, Deepwater Horizon Oil Spill, 
  United States Coast Guard......................................     6
Rusco, Frank, Director, Natural Resources and Environment, 
  Government Accountability Office...............................     6
Zukunft, Rear Admiral Paul F., Assistant Commandant for Marine 
  Safety, Security, and Stewardship, United States Coast Guard...     6

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Caldwell, Stephen L., and Rusco, Frank, joint statement..........    53
Rufe, Vice Admiral Roger, Jr., (Retired).........................    75
Zukunft, Rear Admiral Paul F.....................................    78

                       SUBMISSIONS FOR THE RECORD

United States Coast Guard:

    Response to recommendations from five reports regarding the 
      Deepwater Horizon oil spill................................    12
    Response to request for information from Hon. Frank A. 
      LoBiondo, a Representative in Congress from the State of 
      New Jersey.................................................    38


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
                    ASSURING THE SAFETY OF DOMESTIC
                       ENERGY PRODUCTION: LESSONS
                       LEARNED FROM THE DEEPWATER
                           HORIZON OIL SPILL

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2011

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:59 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Frank LoBiondo 
(Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. The subcommittee is meeting this morning to examine the 
lessons learned in the wake of the BP Deepwater Horizon oil 
spill, review the latest investigations into the causes of the 
spill, and the Coast Guard response to it, hear recommendations 
of those involved in investigations, and find out what actions 
the Service has taken or will take in response to those 
recommendations.
    The BP Deepwater Horizon oil spill was an unprecedented 
tragedy. The explosion aboard the Deepwater Horizon tragically 
claimed the lives of 11 individuals and left a tremendous--
almost unparalleled--natural and economic disaster in its wake. 
The Coast Guard mobilized over 7,500 personnel, and 150 assets 
from throughout the country to respond to the spill. While I am 
extremely proud of how the Coast Guard handled this incident, 
it is important that we review what went well and what we could 
do better in any future type event.
    As such, today we will hear testimony on the Joint 
Investigation Team Report, the incident-specific preparedness 
report, and the Federal On-Scene Coordinator report. These 
reports each contain valuable insight into what caused the oil 
spill, and how the Federal Government responded to it.
    Among the many findings and recommendations, a few stand 
out because they appear in nearly every report. Nearly all of 
the reports noted that the area contingency plans were not 
adequate for a spill of this magnitude, and that they must be 
updated to incorporate protocols for using dispersants and 
other response technologies, as well as the latest information 
on environmentally sensitive areas. They must also do a better 
job of involving State and local officials in the planning 
process. I hope the Coast Guard has made some progress on this 
issue, and look forward to hearing when we can expect all ACPs 
will be revised.
    I am also concerned with findings indicating the Coast 
Guard's oil spill response and Marine environmental protection 
mission has withered over the last decade, as a result of 
emphasis on homeland security missions. This is in line with 
the findings of the inspector general and others, which 
indicate that funding and resource hours dedicated to non-
homeland security missions, as well as the oil spill response, 
research, and development activities have shrunk considerably 
over the last decade.
    Finally, I am very concerned with the findings that 
officials at all levels of Government were unfamiliar with the 
national contingency plan, our Nation's 42-year-old blueprint 
on how to respond to oil spills. But I am particularly alarmed 
that senior leaders of the Department of Homeland Security were 
either unaware or simply misunderstood how the plan functions.
    But these concerns speak to a larger issue this 
subcommittee has been concerned with since the Coast Guard was 
transferred to the Department of Homeland Security, and that is 
the Department does not understand nor appreciate the 
traditional missions of the Coast Guard. We talked about this 
extensively over the years, that when the Coast Guard has been 
asked to do so very much--and homeland security is a very 
critical mission--that the traditional missions cannot be 
overlooked.
    And while critically important, port security accounts for 
only 20 percent of what the Coast Guard does on a daily basis. 
The remaining 80 percent are traditional missions like oil 
spill response. These missions require the Department's 
leadership to understand that they need to commit adequate 
resources and attention, as well as participate fully in 
training and preparedness activities.
    MODUs like the Deepwater Horizon continue to operate in our 
waters, and will soon begin operations in Cuban waters. Each of 
these operations, if not properly regulated by the Coast Guard 
with the support of the Department, could potentially cause 
another catastrophic spill. As such, we cannot afford to sit 
back and take our time in implementing the lessons learned.
    I look forward to hearing what the Coast Guard has done to 
date to implement the recommendations of these reports, and 
when they will complete action on the remaining 
recommendations.
    With that, I would like to yield to Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman, and thank you for 
scheduling today's hearing to continue the subcommittee's 
oversight concerning the circumstances contributing to the 
Deepwater Horizon oil spill, and to hear recommendations to 
improve our energy development activities on the 
intercontinental shelf of the United States.
    We learned a lot earlier this year, when members from the 
National Commission on the BP Deepwater Horizon Oil Spill and 
Offshore Drilling in February provided us with their 
recommendations. I expect that this morning's witnesses will 
provide additional insights and new motivation for the Congress 
to take purposeful action.
    The Deepwater Horizon oil spill was a major human and 
environmental disaster of potentially unprecedented 
proportions. The message today is the same as it was when we 
heard from the National Commission 8 months ago. Undertaking 
deep water drilling requires a fuller understanding of the 
risks that accompany the clear benefits. It is great news that 
we now have a much more full understanding.
    Several common themes run through the findings and 
recommendations contained in the various reports that we will 
review today, and many of these seem parallel--themes parallel 
the findings and recommendations contained in the National 
Commission's report.
    For example, the Federal Government's regulation of 
offshore oil and gas drilling and of foreign-flagged MODUs was 
too lax. Also, Federal oversight of foreign-flagged registries 
and reliance on certifications of compliance issued by such 
registries deserves greater scrutiny.
    Additionally, as reported in the Joint Investigation Team 
analysis, failures and deficiencies in the safety management 
system aboard the Deepwater Horizon and the dual command 
structure that existed prior to its demise each contributed to 
the disaster.
    The need for greater integration and outreach on the State 
and local levels during the development of area contingency 
plans--or ACPs--also was emphasized in these reports. Moreover, 
efforts to better articulate the institutional and operational 
differences between Federal response efforts under the Oil 
Pollution Act and the Stafford Act are needed to improve 
coordination between Federal responders and their State and 
local partners.
    Additionally, we learned that our limited tool box of 
response capabilities exposed a legitimate need for a new 
emphasis and resources to bolster research and development of 
new oil spill response technologies.
    And, once again, these reports reaffirmed that the Jones 
Act, the law which protects and supports our domestic maritime 
industry, was absolutely no hindrance to the Federal 
Government's response to this environmental calamity. These 
reports also make clear that we need to provide Federal 
agencies with adequate resources to minimize the odds of 
another tragedy from happening again, and respond efficiently 
and effectively, should we have to.
    The public depends on Federal agencies to ensure the safety 
of deep water drilling, and the safety of the men and women who 
work on those platforms. Diminishing this capacity through 
budget cuts is irresponsible, especially considering the call 
for increased investment borne out by these reports. As much as 
we may want the Coast Guard to do more with less, what this 
means in reality are fewer inspectors, less inspections, and 
less certainty for safe operations. And, as we have learned 
tragically, this has real consequences, in terms of loss of 
life and economic disruption.
    Now that we have these recommendations in hand, Congress 
should act sensibly where it must to ensure that our policies 
for offshore drilling are rigorous, that they safeguard 
workers, that they benefit the economy, and protect the 
environment. Too many lives are at stake and too many jobs are 
at risk for Congress to remain complacent. If we cannot 
demonstrate that we can utilize our offshore resources in a way 
that protects lives and the environment, we stand to further 
lose our credibility and trust of the American people.
    And that result could be devastating to the maritime 
industry, and the jobs that support our economy as a whole, 
including the ship builders, welders, and pipe fitters who work 
at places like Dakota Creek Industries, located in my district, 
who actually do work to develop and build supply vessels that 
support the energy industry in the gulf. No one is suggesting 
that we eliminate deep water drilling off our coasts. In fact, 
the record says just the opposite.
    According to information provided by the Bureau of Safety 
and Environmental Enforcement, perhaps not all, but many of the 
drilling activities that were suspended as a result of this 
disaster have resumed operations. Moreover, 97.7 percent of the 
1,413 requests to extend deep water oil and gas leases have 
been granted, and close to 300 new well permit applications 
have been approved since June 8, 2010.
    But given what we now know about the risks of deep water 
drilling and the exposed deficiencies, we should put the pieces 
in place to ensure the highest level of safety and reliability. 
When the Exxon Valdez ran aground in Bligh Reef in Alaska in 
1989, Congress responded with the passage of the Oil Pollution 
Act. And fortunately, over the past 22 years, the act has 
served its intended purpose, and greatly reduced the frequency 
and severity of oil spills in the navigable waters of the 
United States.
    Nonetheless, the Deepwater Horizon disaster demonstrated a 
need to amend and strengthen the act to ensure that 
contemporary offshore drilling can be done safely, efficiently, 
and with minimal harm to the environment.
    Last Congress, the House passed comprehensive legislation 
to reform and improve the Federal Government's oversight of 
energy development on the intercontinental shelf. The Senate 
did not act. Nevertheless, comparable legislation has been 
reintroduced this Congress, and that bill, H.R. 501, provides 
an appropriate starting point for discussions.
    I suggest it is time for these discussions to begin in 
earnest, and I stand ready to work with Chairman LoBiondo and 
other members of this committee to shape legislation to meet 
this challenge.
    And with that, Mr. Chairman, thank you for the chance to 
provide an opening statement, and I yield back.
    Mr. LoBiondo. Thank you. Mr. Mica, chairman of the full 
committee, would you like to make any opening remarks?
    Mr. Mica. Well, just a comment, first, to thank you all for 
conducting this hearing. And it is important that our 
subcommittees conduct appropriate oversight, particularly of 
something so significant, so impacting on the Nation as the oil 
spill, the Deepwater Horizon incident, in which we lost lives 
and did damage to the environment of the gulf, and affected 
many of the surrounding States.
    I hope from this hearing and from previous reports that we 
can also adopt measures and look at any changes in law or 
policy that can make certain that we have a better response 
when we do have an incident.
    I am anxious to hear some of what will be the testimony 
given today in regard to progress of the Coast Guard and its 
ability to respond adequately and make certain that we give 
them the tools to--and again, any changes in Federal law that 
we need to make, or in their response pattern, so that again 
they can do the job necessary.
    I was concerned about several things I have heard lately. 
One is--will affect pending legislation to divide some proceeds 
from a legal settlement between the States and the Federal 
Government. And I think it is important that at some point the 
subcommittee ascertain who has been adequately compensated for 
their losses, and try to come up with some fair and balanced 
approach to make certain that people are made as whole as 
possible.
    Congress will have to divide that compensation that the 
courts may soon decide upon, and we want it done fairly. I have 
told some of the participants that I our responsibility in 
Congress is representing the American people and the taxpayer, 
who did expend a considerable amount of resources and effort. 
And I thank the Coast Guard for their great job in helping 
direct the cleanup, and Admiral Allen's incredible work at a 
difficult time.
    I was disappointed by some of the interagency problems that 
we experienced, particularly with EPA. It is making decisions 
that--on some of the chemicals and other treatment that was 
used back and forth, leaving the response in the lurch, so to 
speak, probably causing some delays and also uncertainty in 
what should move forward.
    I think, finally, that it is nice to have the Federal 
Government prepared, and we have learned some lessons from 
this. A delayed response by the Federal Government, but finally 
getting in there. Part of that was based on inadequate flow 
information, and that can be corrected, and we will probably 
hear more about that today.
    But I think, in the long term, the private sector has to be 
held responsible. They also need to be developing technologies 
or means to cap a spill like this as the disaster progresses. 
Some of those mechanisms, the technologies, equipment need to 
be in place. I understand they have taken some initiatives. I 
don't know how adequate they are, in case we ever experience 
something like this again.
    And finally, that BP or anyone who was involved in and held 
responsible for this makes certain that folks are adequately 
compensated. I understand what initially started out as an 
adequate response to those affected has now experienced some 
problems, and people have not been adequately, again, assisted. 
And I think we have got to find out how we move that process 
forward and hold the private sector, as well as the 
Government's feet to the fire.
    I thank you again for conducting this hearing. I hope some 
answers can evolve that will help us do our job better. And I 
yield back the balance of my time.
    Mr. LoBiondo. Thank you, Mr. Mica. We now welcome our panel 
of witnesses. We thank you very much for being here today.
    Our panel includes Admiral Zukunft--I hope that is 
pronouncing it correctly. If it is OK with you, we will go with 
Admiral Z the rest of the way. The rear admiral is the 
assistant commandant for marine safety, security, and 
stewardship.
    We also have retired Coast Guard Vice Admiral Roger Rufe, 
chairman of the Deepwater Horizon oil spill incident specific 
preparedness review, Mr. Steve Caldwell, director of the 
Government Accountability Office of homeland security and 
justice team, and Mr. Caldwell is accompanied by Mr. Frank 
Rusco, director of GAO's National Resources and Environment 
Team.
    I thank you all again for participating. Admiral Z, you are 
up.

TESTIMONY OF REAR ADMIRAL PAUL F. ZUKUNFT, ASSISTANT COMMANDANT 
  FOR MARINE SAFETY, SECURITY, AND STEWARDSHIP, UNITED STATES 
 COAST GUARD; VICE ADMIRAL ROGER RUFE, JR., (RETIRED), CHAIR, 
 INCIDENT SPECIFIC PREPAREDNESS REVIEW, DEEPWATER HORIZON OIL 
    SPILL, UNITED STATES COAST GUARD; STEPHEN L. CALDWELL, 
      DIRECTOR, HOMELAND SECURITY AND JUSTICE, GOVERNMENT 
   ACCOUNTABILITY OFFICE; AND FRANK RUSCO, DIRECTOR, NATURAL 
  RESOURCES AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Admiral Zukunft. Good morning, Chairman LoBiondo, Ranking 
Member Larsen, and distinguished members of the subcommittee. I 
am honored to appear before you today to testify about the 
Coast Guard's status in regard to the 2010 Macondo 252 spill of 
national significance that resulted in a tragic explosion, loss 
of 11 lives, and sinking of the MODU Deepwater Horizon. I 
served as the Federal On-Scene Coordinator for over 6 months, 
leading more than 47,000 Federal, State, local, tribal, and 
private responders in the expansive response operation.
    In the aftermath of the spill, the Coast Guard conducted a 
comprehensive review of several Deepwater Horizon after-action 
reports, including the incident-specific preparedness review, 
or ISPR, the Federal On-Scene Coordinator report, that I 
signed, the National Incident Commander's report, and the Joint 
Investigation Team Report. These reports provide a valuable 
body of lessons learned, perspectives, and opinions the Coast 
Guard is now using to spur initiatives that will ensure we are 
well prepared to respond to future spills of national 
significance.
    While there are many areas for improvement that we are 
addressing through countless initiatives, we have concluded the 
overall response framework and the Oil Pollution Act of 1990 
and the national oil and hazardous substance pollution 
contingency plan, or the NCP, is sound and effective.
    The NCP established and organized a command and control 
structure that allowed the National Incident Commander and the 
Federal On-Scene Coordinator to effectively cooperate with one 
another while directly coordinating with other Federal, State, 
local, tribal, and private stakeholders to address the most 
critical needs.
    Additionally, the NCP provided the necessary discretion and 
flexibility to address the very unique circumstances of the 
Deepwater Horizon response. Since the Deepwater Horizon spill, 
the Coast Guard and the Bureau of Safety and Environmental 
Enforcement, or BSEE, have forged an interagency partnership 
focused on improving compliance standards, oil spill response 
and preparedness efforts, and regulation of drilling activities 
on the outer continental shelf.
    The director of BSEE and the Coast Guard deputy commandant 
for operations meet on a quarterly basis--and they are actually 
testifying together today--to discuss OCS activities. They have 
established working groups that are actively engaged on a wide 
range of issues, including oil spill response planning, 
exercises, joint inspections, and of significant note, a 
comprehensive analysis of regional and area contingency plans. 
This effort includes a worst-case discharge gap analysis to 
identify the most accurate up-to-date information for offshore 
facilities in the Gulf of Mexico, Alaska, and Pacific regions.
    One of the key lessons learned--one of our key lessons 
learned was that, although we planned with State officials, as 
prescribed in the national contingency plan, we need to drive 
the same effort down to the county, parish, local, and tribal 
levels. Accordingly, the Coast Guard has re-emphasized existing 
guidance to our district and sector commanders to develop an 
aggressive outreach program with local municipalities to 
facilitate a true whole-of-government approach under the NCP 
and future response efforts.
    The various after-action reports highlighted 51 
recommendations and areas for improvement. In response, the 
Coast Guard is reviewing each item and establishing goals, 
objectives, courses of action, and a timeline, as a followup. 
Our significant initiatives that are currently in progress 
include developing an on-scene Federal officer coordinating 
course, which has already been launched.
    We have requested additional personnel in the President's 
budget for fiscal year 2012 to establish a national incident 
management assistance team that will provide immediate 
deployable incident management surge capability. We are working 
with DHS and the interagency to update documents and protocols, 
and we have also promulgated a National Incident Commander 
spill of national significance internal instruction that 
codifies a number of the lessons learned during the Deepwater 
Horizon response.
    We are also implementing senior-level Coast Guard liaisons 
to State, local, and tribal levels during a future response. We 
have engaged with EPA and FEMA to develop improvements for 
whole-of-government responses under the national response 
framework and the national contingency plan, and we are also 
working closely with the national response teams, EPA and NOAA, 
to review and update guidelines for dispersant use and in situ 
burning, two tools that were critical in the Deepwater Horizon 
response.
    The Coast Guard is aggressively pursuing updates to 
regulations governing activities on the outer continental 
shelf. These updates will identify safety gaps for critical 
equipment, as identified in the Deepwater Horizon reports, and 
reflect standards for new and emerging technological 
advancements within the industry.
    On July 7, 2011, we announced policy in the Federal 
Register detailing a new risk-based oversight program that will 
target the highest risk foreign-flagged MODUs operating in the 
U.S. EEZ.
    The Coast Guard is also addressing funding concerns with 
both the Oil Spill Liability Trust Fund and the research and 
development. To improve our response capability we need to 
modify current authorities to increase per-incident cap under 
the Oil Spill Liability Trust Fund permit multiple advancements 
from the fund to underwrite Federal emergency response 
activities, and provide access to funds for administration of 
claims.
    There is also an urgent need to further invest in oil spill 
research and development funding. Fiscal year 2011 
appropriations included $4 million for oil spill response and 
development, and the President's fiscal year 2012 budget 
request includes R&D funding for spill response in the Arctic, 
Deepwater subsidy response, and for a full-time executive 
director on the interagency coordinating council on oil 
pollution response.
    In conclusion, although we faced early challenges, 
particularly the technological challenges of oil recovery in 
sub-sea containment at a depth of 5,000 feet, the Deepwater 
Horizon oil spill response met its objectives through the 
prudent application of the national contingency plan, and unity 
of effort--of all efforts of Government and the private sector.
    Gaps that are not addressed in the national contingency 
plan were implemented as best practices in the midst of this 
unprecedented response, and we continue to enact oil spill 
prevention and response initiatives with a focus on outer 
continental shelf activities.
    Thank you for this opportunity to testify before you today, 
and I will be pleased to answer your questions.
    Mr. LoBiondo. Thank you, Admiral, very much.
    Admiral Rufe?
    Admiral Rufe. Good morning, Mr. Chairman and members of the 
committee, Ranking Member Larsen. I appreciate the opportunity 
to appear before you today to testify on the incident-specific 
preparedness review, which I chaired for the Coast Guard. My 
name is Roger Rufe. I am a retired Coast Guard vice admiral.
    Our team was chartered by the commandant of the Coast Guard 
on the 14th of June----
    Mr. LoBiondo. Excuse me, Admiral, can you pull the 
microphone a little closer?
    Admiral Rufe. Our team was chartered on 14 June 2010 by the 
commandant of the Coast Guard to assess the implementation and 
effectiveness of preparedness and response to the Deepwater 
Horizon oil spill. Our team was composed of 14 spill response 
experts from Federal agencies, State governments, industry, and 
a representative of the environmental advocacy NGO community.
    It is important to note that we were focused solely on the 
oil spill itself, not on the fire and explosion, and that we 
were completely independent of the Coast Guard or any other 
oversight from the administration. We conducted 92 interviews, 
all of which were not for attribution, unlike some of the other 
investigations. Our members all signed nondisclosure statements 
and confidentiality agreements.
    We are integrated fully with the President's National 
Commission, which was mentioned earlier. Their staff members 
participated fully in all of our interviews. And, in fact, 
chapter 5 of their report is based largely on the information 
gleaned during the process.
    While the findings and recommendations of our report are 
all important, I would like to highlight a few and, at risk of 
being redundant, certainly some of them were mentioned already 
by the chairman and others, as well as by Admiral Z.
    The ACPs are of uneven quality, especially with respect to 
identifying and prioritizing environmentally sensitive areas, 
and laying out detailed strategies for protecting them. It is 
also important that they identify the resources that are 
necessary for responding to a worst-case discharge.
    There is a need for the incident commander to quickly 
attain information dominance, and maintain it throughout the 
incident. A single source of authoritative information is 
critical to public confidence in the Government's response. It 
is also very difficult to achieve in our 24/7 cable news cycle, 
and in an era of social networking where it is so pervasive.
    As already mentioned, there has been insufficient inclusion 
of local officials in the contingency planning or exercise 
process. That needs to be improved. And Admiral Z has already 
spoken to the fact that it is under scrutiny right now.
    But the inadequacy of local involvement relates to my next 
point already mentioned, that it was unfamiliarity at all 
levels of Government on the national contingency plan, which 
led to what Admiral Allen described as the social and political 
nullification of the NCP.
    State and local officials are much more comfortable with 
and familiar with the NRF model, which allows for the Stafford 
Act to support State and local officials with funding and 
resources, but the local officials are in charge. Obviously, 
that is different than the national contingency plan. And, as 
Admiral Z has already mentioned, our report indicates that we 
feel the national contingency plan is the right model for oil 
spill response, and there needs to be a better process of 
educating State and local officials in that process early in 
the game.
    One thing not mentioned earlier is--and a central part of 
our report was--a failure of crisis leadership at virtually 
every level of response, from industry to Government, from 
Federal to local. Among the indications of this failure was the 
decisions being made on response tactics at political levels, 
rather than at the level of the response experts, which led to 
response tactics being implemented which were known to be 
inadequate at the outset and delayed, in many cases, an 
adequate response.
    And finally, I want to emphasize the issue of funding. It 
was clear to our team that the support of the Coast Guard's oil 
spill preparedness program following the Exxon Valdez spill had 
atrophied over time. This was partly due to the preventative 
program's doing so well in lowering the number of major oil 
spills. But it also resulted from diversion of funding to 
critical homeland security responsibilities.
    This is not an either/or proposition. The Coast Guard and 
the administration need to propose, and the Congress needs to 
provide, adequate funding to the Coast Guard for all of their 
critical missions.
    Thank you, Mr. Chairman. I will be happy to answer your 
questions.
    Mr. LoBiondo. Thank you, Admiral.
    Mr. Caldwell.
    Mr. Caldwell. Good morning, Chairman LoBiondo and Ranking 
Member Larsen, other members of the committee. I am pleased to 
be here to discuss the oversight of offshore facilities, based 
on some of the work GAO has done recently. As noted, I am 
accompanied by Frank Rusco here, who is a director in our 
Natural Resources and Environment Team.
    GAO has done a variety of work related to the Deepwater 
Horizon oil spill. We have reviewed the management of the Oil 
Spill Liability Trust Fund. My team has done work on protection 
efforts by the Coast Guard to secure these facilities from 
terrorist attacks. And Mr. Rusco's team has done work on 
Department of the Interior and their oversight of offshore 
facilities.
    Today my testimony will focus on inspections of offshore 
facilities. It summarizes work we have done at both the Coast 
Guard and Department of the Interior. Such inspections are 
meant to ensure compliance with a variety of regulations, but 
particularly those related to security, safety, and production. 
One of the key purposes of these inspections is to prevent the 
type of incident that happened with the Deepwater Horizon.
    Regarding the Coast Guard, we found that the Coast Guard 
had taken a number of steps, which are detailed in our recent 
report, to secure offshore facilities. However, one of the key 
components of the Coast Guard regime for security, the 
inspections, had not been done for the majority of the offshore 
facilities. Of the approximately 50 offshore facilities, the 
Coast Guard had only conducted 13 percent to 45 percent of the 
required inspections, depending on the year.
    The reasons for not conducting these inspections varied. 
Some of this was confusion over which Coast Guard unit should 
conduct inspections and confusion over which types of 
facilities should be inspected. Some Coast Guard units were not 
tracking which inspections were coming up. And finally, there 
was reliance on owners and operators to tell Coast Guard when 
they needed inspections.
    In addition, the Coast Guard's database for planning, 
conducting, and evaluating such inspections had a number of 
limitations, in terms of consistency, accuracy, and duplication 
of the data.
    Regarding the Department of the Interior, we also found 
that the agency was not conducting all of the inspections 
required to fulfill its regulatory role. The Coast Guard 
delegates certain safety inspections to the Department of the 
Interior. And according to Interior officials, they met their 
internal targets for safety inspections, but those internal 
targets were only set at 10 percent of facilities within a 
given year. Interior has not met its internal targets for 
regulatory inspections to measure the production of oil and 
gas. These production inspections are important because they 
determine how much revenue is due the U.S. Government, as well 
as which facilities the Coast Guard then puts under its 
security regime.
    We found that Interior had met its target for production 
inspections in only 1 of the 4 years we reviewed. We found 
Interior was not able to meet these inspections for reasons 
generally related to personnel, such as hiring, training, and 
retaining inspectors. More recently, we are concerned that 
Interior's reorganization of its bureau and its processes will 
further reduce the number of inspections being conducted.
    Our written statement also goes into detail on the Coast 
Guard's security authorities over MODUs such as the Deepwater 
Horizon. And these authorities, in some ways, are more limited 
than they are for some of the other types of offshore 
facilities.
    In summary, our work has shown deficiencies in both the 
Coast Guard and Department of the Interior regimes for doing 
these inspections. These deficiencies ultimately hinder these 
agencies' ability to ensure that the regulatory requirements 
are met for security, safety, and production. We have 
recommendations to the Department of the Interior, as well as 
the Coast Guard. I am glad to say the agencies both have steps 
underway to take corrective action.
    And hopefully, our collective activities of the agencies of 
GAO and the Congress will help prevent another disaster like 
the Deepwater Horizon.
    In closing, thank you very much. Mr. Rusco and I would be 
happy to answer any questions.
    Mr. LoBiondo. OK, thank you, Mr. Caldwell, very much.
    Admiral Z, this is for you. Over the last year, five 
reports or investigations have come back on the causes of the 
spill and the Coast Guard response to it. These investigations 
and reports include several hundred recommendations for the 
Coast Guard to review and to implement to improve the safety of 
the offshore energy industry prevention of oil spills, and the 
Service's response to the spills.
    With the exception of the Joint Investigation Team Report, 
we do not know whether the Coast Guard is currently taking 
action on any of these recommendations, and which they will 
take action on in the future. Can the Coast Guard provide this 
subcommittee with a list of the recommendations that the Coast 
Guard is taking action on, and which ones they intend to take 
action on for each of the five reports?
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Admiral Zukunft. Chairman, I would be delighted to provide 
you a brief on that. What you will find is that there is 
commonality across a number of the five reports. I highlighted 
six of those key objectives, as we talk about whether it is 
research and technology for response, or measures to prevent a 
spill of national significance, our involvement with--at the 
very local level, with our ACPs.
    But just to walk you through each one of these very 
briefly, the incident-specific preparedness report provided us 
a third-party assessment that characterized our efforts to 
respond to this spill.
    We have since created a national incident command spill of 
national significance instruction that identifies gaps that 
aren't addressed in the national contingency plan to better 
prepare us for a response. This is everything from seafood 
safety, behavioral health, assigning liaison officers to every 
parish president, county official, and Governor throughout the 
affected area. So, we have taken a number of those and have 
already put those in place so that we can then act for 
prevention and response.
    At the same time, with the FOSC report, that is a report 
that I am required to provide to the national response team 
that provides a chronology and a summary of response actions 
and interventions that were taken, which is fairly expansive, 
but is really directed at the response itself. And that would 
be to better inform and better prepare our Nation, should we 
see a similar event transpire on the outer continental shelf.
    And I say that because, as we look at where is oil and gas 
being exploited, it is now in more remote areas. Not only in 
deep water in the Gulf of Mexico, but we are also using these 
lessons learned, as we look at initiatives going forward, to 
drill in the Arctic region. So again, we are applying these 
best practices that were learned during this particular 
response.
    But I can brief you on each and every one of these reports, 
but the--really directs, you know, what can we do to prevent 
these activities. The ISPR and the FOSC report are really 
focused on how to improve our response protocols, including 
research and development. And all of these are in progress. And 
again, I would be pleased to provide you a summary of all those 
activities.
    Mr. LoBiondo. We would like that, Admiral. We would like 
the subcommittee to have a list of the recommendations of what 
you have done and what you will do, and each of the five 
reports. And can you suggest to us when we can expect to 
receive that list?
    Admiral Zukunft. A lot of this we are working across the 
interagency, so it would be circumspect on my part to--as we 
work with NOAA, EPA on, you know, whether it is research and 
development, dispersants, we are working closely with BSEE. But 
I would need some time to look at that. We have some----
    Mr. LoBiondo. Well, let's--excuse me--let's put it this 
way. Recognizing that it is a work in progress, there is some 
that is already decided, and maybe we will have to do this in 
bites. So can we say that within a month that we will have your 
list up to this point in time, and then we can see what that 
includes, and then go from there? Is that reasonable, from your 
perspective?
    Admiral Zukunft. Yes, we would be able to provide that. 
Yes, Chairman.
    Mr. LoBiondo. OK. Also, the Coast Guard has requested 
Congress to make changes to the way the Oil Spill Liability 
Trust Fund functions under current law. The Service has not 
requested any changes to current law governing oil spill 
prevention and response, or in response to any of the 
recommendations of the various reports.
    Can you tell us, will the Coast Guard be requesting any 
changes to current law to improve prevention and response, or 
to implement a recommendation? Or does the Service feel they 
have sufficient authority to make these changes, 
administratively?
    Admiral Zukunft. That is one area where we will seek a 
regulatory change. For any spill out of the Oil Spill Liability 
Trust Fund there is an initial $50 million funding 
appropriation, followed by a $100 million emergency response. 
It then requires congressional approval to get subsequent 
installments of $100 million.
    To put that in perspective, at the peak of this spill--and 
again, this was being funded by BP--we were expending upwards 
of $70 million per day at the peak of this response.
    Mr. LoBiondo. Yes. Excuse me, I apologize if I was unclear. 
We understand about this funding scenario, but I am interested 
in changes to current law, as it results in response and 
implementation or recommendations for the Service.
    Can you do this administratively, or changes to current law 
of how you respond? Does it have to come through legislation?
    Admiral Zukunft. Chairman, right now we are doing that 
through policy, and so we are able to invoke many of these 
measures through policy and not regulation.
    Mr. LoBiondo. OK. And, Admiral Z one last question for you. 
In the wake of the disaster that we had with this oil spill, 
several responders to the spill and manufacturers of 
dispersants and other technologies who were following the 
request, or the requirements the Coast Guard laid down for them 
to deal with the spill, have been sued for the actions they 
took at the direction of the Government during the response of 
the spill.
    So, the Government tells them what to do, tells them what 
they need, and then, you know, in the height of all the 
confusion and the run-up to getting this done right. And now, 
because they did what they were told, they are being sued.
    Has the Coast Guard heard from the responders or dispersant 
manufacturers regarding the issues? And has the Coast Guard 
taken a position on these lawsuits?
    Admiral Zukunft. We have not taken a position. But in the 
urgency of a response, there needs to be a provision for 
indemnification of these oil spill response organizations that 
are responding in accordance with our interagency action plans. 
So that would be a needed change if, in fact, these responsible 
organizations are being held liable.
    Mr. LoBiondo. Well, I would like to suggest in very strong 
terms that the Coast Guard consider either sending up 
legislation or taking a very strong position on this. I don't 
see how, when we have a disaster like this, we can expect 
people to respond and follow what we are requesting them to do, 
and let them swing in the wind when the dust starts to settle.
    And I can only think of a future situation where there is 
an emergency and a disaster, and especially if it is involving 
some of these same groups, if it is an offshore disaster like 
this. If I were one of them, I think I would be pretty slow to 
respond. So I would urge you to figure out how the Coast Guard 
can minimally weigh in on this, and ideally become proactive in 
how we can resolve this problem.
    Admiral Zukunft. I agree completely.
    Mr. LoBiondo. OK. Also, I would like you to report back to 
us how you are making out with that.
    Admiral Zukunft. I have that for action.
    [The information follows:]

        The Coast Guard interprets this question as pertaining 
        to conferral of responder immunity, rather than 
        indemnity. The Coast Guard has met with certain Oil 
        Spill Response Organizations (OSROs) to discuss their 
        concerns with respect to litigation claims against them 
        for personal injury and death alleged to be from the 
        use of dispersants during the Deepwater Horizon spill 
        of national significance. By statute, OSROs already 
        enjoy immunity for response activities under the Clean 
        Water Act as amended by OPA 90, 33 U.S.C. 1321(c)(4). 
        The statute essentially exempts responders from 
        liability for actions taken consistent with the NCP 
        relating to a discharge or substantial threat of a 
        discharge. However, this exemption does not apply with 
        respect to personal injury or death, or if the 
        responder is grossly negligent or engages in willful 
        misconduct. OSROs have asked that the U.S. Government's 
        sovereign immunity under 33 U.S.C. 1321(j)(8) be 
        extended to them: ``The United States Government is not 
        liable for any damages arising from its actions or 
        omissions relating to any response plan required by 
        this section.'' The Coast Guard is in the process of 
        carefully considering the various legal, policy and 
        operational implications of addressing the OSROs' 
        concerns through any procedural vehicle(s) that may be 
        available. The Coast Guard will coordinate conclusions 
        and actions with the Environmental Protection Agency 
        and Department of Justice.

    Mr. LoBiondo. OK. Because we will revisit it if the answer 
is not correct.
    I have some additional questions, but I am going to turn to 
Mr. Larsen now.
    Mr. Larsen. Thank you, Mr. Chairman, and I would like to 
start with Mr. Caldwell with regards to the Oil Spill Liability 
Trust Fund, and actually the financial risks which you just 
briefly mentioned in your testimony.
    But it is my understanding that, as cleanup costs continue 
to mount, the GAO has estimated there is a reasonable chance 
that expenditures from the trust fund will exceed the $1 
billion total expenditure per incident cap, and that funds will 
no longer be available to reimburse the Federal agency costs 
associated with the incident. Does that--is that correct?
    Mr. Caldwell. Yes, sir. We don't have a specific time when 
that is going to be. But right now we are at 62 percent of the 
cap. So, given the uncertainty of the cost, and the long-term 
nature of restoration, it could certainly go over that cap.
    Mr. Larsen. And so, the influence on the timeframe is sort 
of getting some harder costs about the longer term cost of 
restoration, as an example? What other factors would be 
involved in getting that other----
    Mr. Caldwell. I think just the lag, in terms of when costs 
are incurred and when they are reimbursed, as well as the 
uncertainty of some of those restoration costs going forward. 
Restoration is more of an art than a science.
    Mr. Larsen. Sure.
    Mr. Caldwell. We know about such lags from the Exxon 
Valdez. It took 10 years to clean up some of the damage.
    Mr. Larsen. Right. Well, it has an implication, I guess, 
for us then, as well. Because to alleviate the strain on the 
trust fund, GAO has again recommended that Congress consider 
setting a new incident fund cap based on net expenditures, 
rather than total expenditures. Would that change provide an 
immediate improvement in the financial status of the trust 
fund? And is there any downside to doing that?
    Mr. Caldwell. It would have no immediate impact on the 
fund. What it would do is reduce the uncertainty that you have. 
And if you make those changes in advance, you will increase the 
chances that those reimbursements would continue unabated.
    As I said, some of the restoration work can take years. 
Obviously, there is a lot of other funding options Congress 
does have. But having one that is directly linked to the fund 
is obviously useful, since the fund pays for these.
    Mr. Larsen. Yes. In terms of the downside to a change like 
that?
    Mr. Caldwell. I don't really see one right now. The 
advantage we had in this case, in this horrible incident we did 
have, is that the responsible party had deep pockets. BP 
upfront said, ``We are going to pay for these costs.'' So we 
didn't have the problem of either a small player that created 
large damage, or a company that then went bankrupt and couldn't 
fund any of the cleanup.
    Mr. Larsen. Yes. Would the--but the cumulative impact, say, 
of several incidents--one big incident could blow the fund up. 
Unfortunate choice of words, I guess, sorry about that, but it 
still would. And you would have perhaps smaller, unrelated 
incidents elsewhere in the country who then potentially get 
squeezed out of access to the trust fund, unless there was 
something done with it.
    Mr. Caldwell. That is correct. If you had multiple 
incidents, you would be more likely to draw down the fund 
quickly. Perhaps you could have a natural disaster but that 
would be different, that would be funded under the Stafford 
Act.
    But you could have multiple accidents within a year or two. 
You could have an accident like the Deepwater Horizon, which 
was now more than a year ago, but if you have another large 
incident, you may be still drawing down from the first one and 
then you have got costs from the second one, as well, which 
could put a large strain on the fund.
    Mr. Larsen. Right, right. Well, the GAO has expressed 
concern that the per-barrel tax, the primary source of revenue, 
is due to expire at the end of 2017. And they estimate the fund 
balance will likely decrease over time and raise the risk that 
the fund would not be adequately equipped to deal with future 
spills--we sort of discussed that--particularly another spill 
like Deepwater Horizon.
    Based on that uncertainty of future costs associated with 
this incident, I know GAO isn't in the direct business of 
providing direct recommendations to Congress about what we 
should do or shouldn't do, but rather, what you see. Is it 
better for Congress to reauthorize the per-barrel tax sooner, 
or wait to see if the--wait 4 or 5 years, when the tax is 
scheduled to expire, to see what happens with the trust fund?
    Mr. Caldwell. You reduce the risk of uncertainty if you 
take these steps in advance. We do have 5 years here, but there 
was other periods where the tax expired. What I don't have in 
front of me is whether during those certain years--I think 
there is a 12-year hiatus where the barrel tax expired--what 
happened to the financial health of the fund during that 
period.
    But if you have this established in advance, you have less 
uncertainty. There is a lot going on in Congress, and some 
things don't get reauthorized or don't get passed.
    Mr. Larsen. Yes. There is always a lot going on in 
Congress. And my personal view, it is never an excuse not to do 
something.
    So, Admiral Z, the GAO has recommendations on inspections 
as they relate to Coast Guard. Hearing your testimony and 
hearing GAO's testimony--I am just trying to get my head 
wrapped around where they connect and where they disconnect--
can you, from your point of view, discuss the recommendations, 
a few of the recommendations from the GAO specifically, and how 
the Coast Guard is addressing those?
    Admiral Zukunft. Yes. We recognize we do have shortcomings 
in our tracking of security inspections on the outer 
continental shelf, whether they are fixed platforms or mobile 
offshore drilling units, which are technically vessels. And so 
we are working to correct those inadequacies. But the points 
they make are being taken for action, so we can better track 
those particular events.
    On the safety side, those inspections have not languished. 
Some of those are actually carried out on our behalf either by 
Department of the Interior or, in some cases, by other 
recognized organizations. But there is a distinction between 
safety and security inspections. And we do have room for 
improvement on our enactment of security inspections on the 
outer continental shelf.
    Mr. Larsen. I have got one more question for Admiral Z, and 
then a second round I have some questions for Admiral Rufe--I 
don't want you to feel ignored--actually some ones about ACP. 
So if you--think through that.
    But just finally for Admiral Z, on this determining what is 
a high-risk MODU for inspection from your policy letter of 11/
2006, you talk about 2 things: how to determine what is high 
risk; and second, the JIT said inspections were so routine 
that, essentially, complacency got set in. So you could still 
focus on high-risk MODUs, but that could still become routine, 
and it could still introduce a measure of complacency into even 
those inspections of high risk.
    So talk about what a high-risk MODU is, and then talk about 
what you would do to prevent that complacency that the JIT 
report found on inspections.
    Admiral Zukunft. Yes. For the--this really applies to 
foreign-flagged MODUs.
    Mr. Larsen. Yes.
    Admiral Zukunft. And where we depend on the flag state, and 
often under the auspices of a recognized organization, to 
follow through on IMO-accepted codes. But when we have foreign-
flagged vessels operating in the U.S. EEZ, we do need to be 
more stringent, and ensure that these also comply with U.S. 
standards.
    And so, it is possible to look at a MODU's history, you 
know, if they have had oil spills in the past, to then target 
that as a high-risk mobile offshore drilling unit. It does one 
of two things. One, it rewards the good actors, and at the same 
time it holds those that may not be in full compliance to not 
just international, but also U.S. standards. And so, that is 
the process that we use in assessing those high-risk MODUs.
    Mr. Larsen. And the issue of complacency, though? You could 
still have that level of inspection, but again, we had levels 
of inspection before, and things got routine, and people got 
complacent.
    Admiral Zukunft. Yes. No, I could not attest to that, you 
know, complacency has set in. This was an issue with foreign-
flag, you know, operating in the EEZ, that we were not as 
strident as we would, had that been a U.S.-flagged vessel 
operating in the EEZ. So it is that issue of, you know, how 
strident were we with a foreign flag, but not an issue of 
complacency. But it was a dependency, if you will, on the 
foreign-flagged state, and a number of recognized organizations 
such as DNV or ABS to provide that level of oversight. But we 
will provide that measure, as well, for foreign flag in our 
EEZ.
    Mr. Larsen. All right, thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. Admiral Rufe, the incident-specific 
preparedness review is a third-party report that is chartered 
by the Coast Guard and compiled by a team of industry and oil 
spill experts. The ISPR noted that the Coast Guard's 
environmental response capabilities have atrophied. Can you 
share with us what your thoughts may be of why that has 
happened, and any suggestions that could be made to restore 
those capabilities?
    Admiral Rufe. Well, I think two things, Mr. Chairman, 
contributed to that. One is that over time, because of the 
infrequency of large spills, I think the Nation became 
complacent--not just the Coast Guard, we all became 
complacent--that perhaps we had gotten past the concern about 
oil spills. And so the shift away from the oil spill response 
capability in the Coast Guard was probably a factor of that.
    But it was also a factor of increasing responsibilities of 
the Coast Guard that caused attention to be shifted to homeland 
security missions and other high-priority missions. I think the 
Congress and the administration were equally at fault for not 
ensuring that the Coast Guard, as the Coast Guard overseers, 
made sure that they continued to be fully funded and adequately 
funded, and that the emphasis did not drift away from 
inadequate oil spill response capability.
    Mr. LoBiondo. And also, let me thank you for your service 
and your willingness to return back to the public side of 
things to share with us your expertise. It is very much 
appreciated.
    The incident-specific review, the review notes that the 
area contingency plans were ineffective, and that the national 
contingency plan was not well understood by State, local, and 
even some Federal officials. Would strengthening and improving 
the ACPs to make them more effective help Government officials 
to understand what the Coast Guard is doing, and make us more 
effective here? Do you have any ideas or thoughts in this area?
    Admiral Rufe. Yes, sir. Well, I think underway already, 
according to Admiral Z, is more inclusion of the local 
officials in that contingency planning process. And we think 
that is vital.
    But I will say that it is much easier for these State and 
local officials to get up on their high horse and get excited 
about the fact they weren't included when there is a spill 
underway. It is another thing to have them sit through these 
long, laborious, really difficult meetings, where they have to 
sit down and decide what are the priorities. When everything is 
a priority, nothing is a priority. So to sit down and say, 
``This marsh is more important than this beach, and when it 
comes to protecting them, I am willing to have oil come up on 
this beach, as opposed to the marsh,'' it is an important 
consideration that they be able to sit down and hammer out at 
the contingency planning process.
    So, including them certainly is important. They have to be 
willing to come to the meetings, to participate, and then to be 
part of the team that says, ``This is the way we are going to 
handle this when the spill occurs,'' and I think then you will 
have less of the political influence over decisions being made 
about response strategies during an incident. They will feel 
part of the process. They will understand, as you point out, 
the national contingency planning process, as contrasted with 
the NRF. And we will have a much better process.
    Mr. LoBiondo. All we have to do is figure out how to force 
them to do that.
    Admiral Rufe. That is right. Some funding for--they are 
always looking for funding. I don't know if that is a 
possibility. But, it is expensive for them to participate in 
the process.
    Mr. LoBiondo. Right.
    Admiral Rufe. It takes them away from other things they are 
doing. And that is the case at every level. You know, the 
Secretary of Homeland Security only has so much bandwidth. And 
for her to go to an exercise--or him, whoever the secretary 
is--to learn more about the national contingency plan takes him 
or her away from something else that is on their plate.
    So, I don't want to be critical, but it is important that 
these officials become engaged when you are not in the middle 
of a crisis, so they can understand what the process is, they 
can understand how the system works and be part of it, right 
from the get-go, rather than being in the learning process when 
the spill is ongoing.
    Mr. LoBiondo. Thank you. Master Chief Coble.
    Mr. Coble. I thought you had forgotten me, Mr. Chairman. 
Thank you.
    Mr. LoBiondo. Never.
    Mr. Coble. Good to have you all with us, gentlemen. Admiral 
Z, I was going to ask you about the administrative authority, 
or lack of it. But I think you and the chairman pretty well 
detailed that, so I won't revisit it.
    Admiral Rufe, good to have you back on the Hill, as the 
chairman said. The incident-specific preparedness review is a 
third-party report chartered by the Coast Guard and compiled by 
a team of industry and oil spill experts. The ISPR noted that 
the Coast Guard's environmental response capabilities have 
atrophied, or lapsed. What can be done to restore these 
capabilities if, in fact, you agree that they did lapse?
    Admiral Rufe. Yes, sir. I certainly agree they did lapse. I 
think the Coast Guard is already underway in bringing their 
response capability up to the level that it should be, based on 
our report and based on the other reports, to the extent that 
they can do that internally.
    However, it is going to require funding. And that is, I 
think, where the Congress comes in, where the President comes 
in. It is important that the President support a strong budget 
for the Coast Guard. Admiral Z can't say this, but I can, I am 
retired now, that the President support a strong budget for the 
Coast Guard that doesn't compromise one critical mission for 
another, and that the Congress support a strong funding for the 
Coast Guard so they can do the R&D that is necessary, and can 
restore the capability that it needs to respond to these 
spills.
    And, you know, the fact that we are drilling further and 
further offshore in deeper and deeper water, I think we are 
being less than honest with the American public to say that 
that is a free lunch. You know, we need the oil, but it comes 
with great risk. And we need to minimize that risk, and be sure 
that we are doing it as safely as possible. But it is not a 
zero-risk industry. So, when these incidents occur, as 
infrequently as they may, we have to be prepared to respond to 
them adequately.
    Mr. Coble. I concur. Thank you, Admiral. Mr. Caldwell or 
Mr. Rusco, since the oil spill there has been much discussion 
about the regulatory oversight of MODU--that is, offshore 
drilling units--especially those that are foreign-flagged. Was 
the Coast Guard adequately inspecting MODUs prior to the 
Deepwater Horizon incident, in your opinion?
    Mr. Caldwell. We put a chart in our report, and we tried to 
get color copies to committee members, as well, to show it is 
really complex. This chart shows which MODUs fell under which 
categories. The inspections that were conducted by the Coast 
Guard would differ from a normal offshore facility.
    Mr. Larsen. Mr. Chairman?
    Is that the chart on page 15 of your report?
    Mr. Caldwell. Correct.
    Mr. Larsen. OK, thank you.
    Mr. Coble. Well, was there a gap between the Coast Guard 
and BOEM inspections prior to the incident? And if so, what was 
being overlooked, or missed?
    Mr. Caldwell. We didn't find that Coast Guard wasn't doing 
inspections of MODUs. What we saw was that the kinds of 
inspections Coast Guard was doing on a MODU were generally 
different than they do on a larger offshore production unit.
    Mr. Coble. OK.
    Mr. Caldwell. Because MODUs rarely meet the production 
thresholds to bring in section 106 of the Maritime 
Transportation Security Act, which would require that they have 
a security plan, the Coast Guard does not do annual security 
inspections.
    Mr. Coble. I thank you, sir. And just for the record, Mr. 
Chairman, for the benefit of the uninformed, the chairman has 
affectionately promoted me to master chief status. I am not a 
master chief, and I am not qualified to be one. But I thank you 
for that, Mr. Chairman, and I yield back.
    Mr. LoBiondo. Well, in this committee you are a master 
chief, and you are qualified to be one.
    Mr. Coble. I thank you, sir. I appreciate that.
    Mr. LoBiondo. The gentleman from Minnesota.
    Mr. Cravaack. Thank you, Mr. Chairman, and thank you for 
the great panel being here today. Thank you for the United 
States Coast Guard for doing what you do on a daily basis that 
so many people don't even realize what you do. So thank you for 
keeping us safe.
    A couple of questions I did have is for Mr. Rusco, if I 
could, sir. Is it safer to drill in deeper water or more 
shallow water? Or is it the same?
    Mr. Rusco. There are different risks associated with both. 
So I am not sure I can answer which is safer. But what we can 
say is, looking at processes for managing offshore drilling, 
that it is clear that the regulator needs to understand more 
clearly what all those risks are, and build that into the 
planning and permitting process.
    Mr. Cravaack. OK. If an incident such as Deepwater Horizon 
occurred in more shallow water, would it have been easier to 
respond to?
    Mr. Rusco. Yes. I am certain that that is correct, that 
Deepwater, in the specific incident that occurred, did create 
its own unique difficulties, in terms of response.
    Mr. Cravaack. In your opinion, can you tell me why we were 
drilling in such deep water, versus in more shallow water?
    Mr. Rusco. The progress of drilling in the gulf has taken 
place as a result of following the resources where they are, 
but also taking advantage of new technologies that have allowed 
drilling in deeper and deeper waters.
    Mr. Cravaack. OK. So there is--the reason why we were 
drilling in deeper and deeper water is only--was because of the 
resources that were available out there, versus, for example, 
drilling in more shallow water?
    Mr. Rusco. I think we started in shallow waters because 
that is what we could do, technologically, way back at the 
beginning. The technology improved, both in terms of 
exploration and discovery of resources. And we discovered that 
there were vast resources further and further offshore, and the 
technologies enabled the companies to go there.
    Mr. Cravaack. Do you think we are prepared now for another 
Deepwater Horizon, if that would occur? I know there were some 
unique, you know, incidents that occurred. But do you think we 
would be able to do it again, but respond in a better manner?
    Mr. Rusco. Obviously, a lot of lessons have been learned. 
But I think those lessons need to be codified into regulation 
and rules, and that process is ongoing. At GAO we currently 
have ongoing work looking at response technologies, and also 
looking at the permitting and planning process that BOEM is 
using, and inspection regulations and rules that BSEE is 
adopting. We will be reporting out on that towards the end of 
the year and the beginning of the next year, and we should have 
a lot more to say about that.
    Mr. Cravaack. OK. Thank you, sir. Admiral Rufe, would you 
agree with that, or--since you are not wearing the stripes any 
more, you can let her rip.
    Admiral Rufe. Yes, yes, generally speaking. Now, we did not 
look at the drilling operation itself. We were strictly 
limited--our team was strictly limited to the response to the 
spill. So we didn't have any role in assessing blame or looking 
at the technology to--the drilling technology.
    But I will say, in terms of responding to a spill, yes, I 
think there were a lot of lessons learned about how to cap a 
well that we didn't know before this came. There were things 
developed--to BP's credit, there were things developed on the 
fly that should have been in place earlier, weren't, but they 
developed them pretty quickly. And I think, were it to occur 
again we would be better prepared.
    I wouldn't say we are not going to end up with oil on the 
beach. I think history tells us if you have oil in the water, 
it is going to end up on the beach, and people have to accept 
that is a risk. That is one of the risks of production.
    Mr. Cravaack. Right.
    Admiral Rufe. That is one of the costs of production, and 
people have to accept that.
    Mr. Cravaack. Right. OK. Great. Thank you, sir. Appreciate 
it.
    Mr. Caldwell, in your recent findings you noted that the 
former MMS was not adequately staffed for inspecting offshore 
facilities. Under the MOU with the Coast Guard, the MMS was 
responsible for ensuring the safety compliance for all offshore 
oil platforms. Is there a cause to believe that the safety 
systems for the platforms were not being inspected prior to the 
Deepwater Horizon? And I understand that there has been some--
you are up to a certain percentage, but you are not quite there 
yet.
    Can you kind of expand upon that, and what we are trying 
to--making sure that you have the resources that you need to 
make sure it occurs?
    Mr. Caldwell. I will ask Mr. Rusco to answer on those----
    Mr. Cravaack. OK.
    Mr. Caldwell [continuing]. Issues.
    Mr. Rusco. Yes. So we have found for a number of years that 
Interior--and this is not just offshore, it is also onshore, 
but obviously this is about offshore--have not met all of their 
internal and regulatory requirements for inspections. And the 
key reason for that is that they have had trouble attracting, 
training, and retaining staff that are qualified to do that.
    These inspectors go out and they are inspecting for a lot 
of things having to do with production verification. Also, in 
the same inspection, they will look for safety violations or 
environmental issues. And so these inspections are all together 
typically done by the same staff. They have been hard pressed 
to maintain a level of trained staff to meet all those needs. 
And Interior has requested funding for additional staff, but to 
my knowledge they are working on developing that. But they are 
not there yet.
    Mr. Cravaack. OK. Thank you, sir. Mr. Chairman, my time has 
expired. I yield back.
    Mr. LoBiondo. Gentleman from the 27th District of Texas? Is 
that correct?
    Mr. Farenthold. Yes, sir.
    Mr. LoBiondo. You are now recognized.
    Mr. Farenthold. Thank you very much, Mr. Chairman. We--
there has been a lot of talk today about inspections. And I 
guess we will ask--or I will ask--Admiral Z and Mr. Rusco. Had 
the Deepwater Horizon been inspected the day before the 
blowout, would you all have--do you think you all would have 
caught something that would have stopped it?
    You know, my reading of the reports were there were a 
series of bad events that happened and bad decisions that were 
made and troubles associated with setting cement that deep 
under water. Had all the inspections in the world been 
conducted, do you think the result would have been different, 
and there wouldn't have been the blowout?
    Admiral Zukunft. One area of particular concern was the gas 
detection system had been muted, which would not have provided 
maybe perhaps adequate warning that there had been a release of 
gas to perhaps earlier attention to shut that well in. But that 
would have been detected during an inspection.
    Some of the other--the electrical systems, the life-saving 
systems that we would check would not have had any impact on 
the outcome of this. But some of the inherent--especially these 
remote sensors that would detect a presence of gas, you know--
--
    Mr. Farenthold. It might have given us a little more time?
    Admiral Zukunft. That may have provided us a little bit 
more window of time.
    Mr. Farenthold. Mr. Rusco, do you have anything to add?
    Mr. Rusco. I think that I can't say that it could have been 
prevented, had there been an inspection the day before. But 
what I can say is that Interior recognizes that its inspection 
process needs to be improved, both in terms of applying risk-
based standards for when and how to inspect. And they are 
working to change their inspection process. We are in the 
process of evaluating that, and we can report out on that.
    Mr. Farenthold. Thank you. And there is--the United States 
is not the only country developing oil and gas in the Gulf of 
Mexico. You are seeing an increase in Mexico, and now Cuba is 
starting to be involved in that.
    How--the way the currents work in the Gulf of Mexico--I 
represent the gulf coast, you know, from Corpus Christi, Texas, 
to Brownsville--that stuff tends to--the currents tend to take 
it our way. And we suffered for years from a blowout in Mexico. 
How is the Coast Guard prepared, if at all, to deal with a 
spill taking place in waters of another country, and in a 
completely foreign-controlled situation?
    Admiral Zukunft. We are working multilaterally, as we 
speak, to address concerns that we have with offshore drilling 
in Cuba and the Bahamas. Those currents, while not of concern 
to Texas, is of great concern to southern Florida and our 
eastern seaboard, and perhaps would make impact within 5 to 10 
days of a catastrophic event. So we are already working on our 
area contingency plans.
    More importantly, you know, what our response posture--
there are some legal gaps, in terms of what we would call a 
responsible party when, in a foreign EEZ, there is a release of 
oil that impacts the U.S. Clearly, we have our Oil Spill 
Liability Trust Fund. But certainly there are constraints 
there.
    And so, working with that other foreign country--Cuba, in 
particular, is--will be a challenge, but we are working very 
closely at the interagency level to address that particular 
concern, because that drilling effort will commence in January.
    Mr. Farenthold. Now, under existing law we have got 
technology that we couldn't share with a country like Cuba, is 
that correct?
    Admiral Zukunft. Again, we are working with other 
governmental agencies. What we did learn from Deepwater 
Horizon--the capping stack did not exist on April 20th, on the 
day of that blowout. That was designed, literally, on the fly, 
as was the top hat and other intervention methods. Helix, a 
U.S. company, now has dynamically positioned vessels and that 
technology literally on the shelf. So what we need to--you 
know, our concern is we want to contain that before that oil 
comes ashore and causes environmental and economic damage to 
the United States.
    So, that information, we do want to be able to share that 
to protect U.S. interests.
    Mr. Farenthold. And finally, there was a lot of talk in the 
media as this was going on that there were various offers of 
assistance from foreign governments and foreign assets that 
could have been brought to bear in responding, and those were 
either not used or turned down for a variety of reasons.
    How has that been addressed? Can we, in the future, find a 
way to deal with the foreign companies that want to help, or 
are we adequately situated to do it entirely ourselves with no 
help?
    Admiral Zukunft. We address this in our instruction. Again, 
this was a lesson we learned on the fly, and we stood up what 
we called an interagency technological assistance program that 
assessed every foreign offer of assistance, and whether it 
would immediately alleviate some of the impact that we were 
seeing.
    We actually flew equipment from the Netherlands to the Gulf 
of Mexico. We didn't send the vessels, because it would take 
them a month to get there, but we entertained over 67 foreign 
offers of assistance, and we did receive assistance from 22 
countries across the globe.
    Mr. Farenthold. So you think you may have been treated 
unfairly with the media on that one?
    Admiral Zukunft. Yes. Well, I think the other part is, you 
know, you do not want to be doing research and development in 
the midst of a spill of national significance. So having that 
available on the shelf would have been much more helpful for us 
to implement----
    Mr. Farenthold. Well, I see my time has expired. Thank you 
very much for your answers, and I will yield back.
    Mr. LoBiondo. The gentleman from coastal Louisiana.
    Mr. Landry. Thank you, Mr. Chairman. Thank you, Rear 
Admiral, Vice Admiral, for your service, and the panel, for 
being here today. This question is actually for both Admiral Z 
and Vice Admiral Rufe.
    Do you agree with conclusion O of the JIT report which says 
that the proximity and operational capabilities of the offshore 
supply vessel Damon B. Bankston were critical to the successful 
evacuation of 115 survivors of this casualty?
    Admiral Zukunft. Congressman, absolutely. Although the 
Damon B. Bankston was not a standby vessel, she was in that 
immediate proximity. And the outcome could have been much 
different for those 115 survivors.
    Mr. Landry. And she was an EEP vessel, classified vessel, 
though, right?
    Admiral Zukunft. That is correct.
    Mr. Landry. You know, because one of my biggest concerns--
certainly, you know, I always believe that the greatest natural 
resource we have in the Gulf of Mexico is actually the men and 
women who ply that dangerous trade. And I want to learn from 
this accident, and I want to take it as a learning experience, 
and make sure that we implement ways to make sure that those 
people get back home if we ever have another accident like 
that.
    We heard from the panel that this action was mostly caused 
by human error, communication problems. Those things can happen 
again even under the most perfect system, any time you insert 
the human element in it.
    And so, you know, and one of the things that I find amazing 
is that, by having the Damon B. Bankston there, the Coast Guard 
lowered a rescue swimmer down from the chopper that arrived at 
the scene about an hour-and-a-half or so later. And that 
swimmer conducted triage, and ensured that the most severely 
injured individuals were evacuated first.
    Absent the presence of that vessel, of the motor vessel 
Damon B. Bankston, where would this triage have occurred on 
these 110 people?
    Admiral Zukunft. Yes. Again, had it not been for the Damon 
B. Bankston, you know, I think the outcome for some of those 
survivors would have been much different. She was very critical 
to the immediate rescue and survival of some of the more 
critically injured.
    Mr. Landry. So--and so I guess you would agree with the 
witness statement that was found in the JIT report which says 
that if the Damon B. Bankston wouldn't have had a fast rescue 
craft, there may have been 10 more lives lost?
    Admiral Zukunft. That was a very likely outcome. Yes, sir.
    Mr. Landry. And so, again--because it is hard for people 
who have never been out in the Gulf of Mexico, who can't 
understand the environment that these men and women are dealing 
with, and how vast that gulf is, that--and the amount of 
people. I think it is hard for people to even understand how 
many people were actually on that particular rig.
    That again, if you have everyone evacuating off that rig, 
and this rig being totally taken out of service in a manner 
that no one can stay on it, if we don't have a place where 
those people can--where we can bring everyone to a central 
location in an effort to allow the Coast Guard--because only 
the fastest manner that you all have for getting out there at 
that distance would be a helicopter, is that correct?
    And so, again, to triage those personnel, and ensure that 
we provide and administer first aid and get those who are 
critically wounded helo'd out, we need a stable platform by 
which to do that. Would you not agree?
    Admiral Zukunft. I have been in that business for over 34 
years, Congressman, and I do agree.
    Mr. Landry. And lastly, again--I mean I hate to continue to 
beat this dead horse--so you would agree with the safety 
recommendations which state: ``It is recommended that the 
commandant revise 33 CFR subchapter N to establish designated 
standby vessels for MODUs engaging in oil and gas drilling 
activities in the outer continental shelf''?
    Admiral Zukunft. Yes. We have not pursued that. We are 
currently working with our Federal advisory committees to first 
work through that process. But certainly we, in the context of 
Deepwater Horizon, fully appreciate the safety of life factor 
that is involved with this.
    But we are going through, as we would any regulatory 
process, going through that outreach process first.
    Mr. Landry. Thank you, Mr. Chairman. I yield back.
    Mr. LoBiondo. Mr. Larsen?
    Mr. Larsen. Admiral Rufe, I said I would get back to you, 
and then you ended up answering all the questions I had. And I 
had--a lot with the ACPs and what we can do about those, but 
there are a few more questions.
    Your report generally speaks positively concerning the use 
of alternative response technologies, specifically the use of 
dispersants and in situ burning. Your report does recommend, 
however, that more work needs to be done to evaluate those 
technologies and assess their overall impact on the marine 
environment, and establish protocols and procedures for when 
they might be safely used.
    Which Federal agency should lead that assessment? Should it 
be conducted by a nongovernmental entity? Is there a role for 
industry? If there is, what role would that be for industry, in 
order to accomplish what you have recommended?
    Admiral Rufe. Well, first of all, yes. This was an unusual 
spill, and dispersants we used at a level never before seen and 
never before contemplated, including inserting large amounts of 
dispersants at the well head. So the long-term impacts on the 
environment are still out there. There should be studies done, 
and there are studies being done to see what, if any, negative 
long-term impacts there might have been by that extensive use 
of dispersants.
    I think EPA should lead that, and they are qualified to do 
it. That is their wheelhouse for that kind of work. I think 
industry has a large role to play in that, because there is a 
lot of expertise in industry, both in the manufacturing and 
producing of dispersants, as well as the application of them. 
Certainly the Coast Guard ought to be involved in it, because 
the Coast Guard does have a role in the authorization in the 
use of dispersants, although EPA is the lead.
    So, I think--EPA ought to be the lead for it, but certainly 
with input from a number of Federal agencies. NOAA probably has 
a large role in being part of that investigation, because they 
have the scientific capability to assess best how that impacts 
the environment.
    Mr. Larsen. On the ACPs, if I could--just yes or no, or you 
can expand a little bit--I just want to make sure I understand 
your point about the involvement of local communities, what a 
State, what this parish, what this county level, city level----
    Admiral Rufe. Right.
    Mr. Larsen [continuing]. That your point is that if we are 
going to use the NCP, which you state is the appropriate 
framework to use in these kinds of incidents, that it is going 
to take much more education and training of these communities 
about what the NCP is, and how they fit into it, than has 
currently been done. And, as a result, it will take more 
resources to do that, resources that currently, you know, 
either exist in the budget, would need to be moved from some 
other place in the budget, or don't exist in the budget and 
need to be added to the budget in order to get the magnitude of 
the training done.
    Admiral Rufe. Yes. I think so, because I think, up until 
recently, the Coast Guard has had a good relationship with the 
State authorities who are involved in the spill response----
    Mr. Larsen. Yes, right.
    Admiral Rufe [continuing]. And they have been fully 
involved in the contingency planning process.
    I think the Coast Guard relied--overly relied on the State 
to bring in the local folks. And that hasn't happened, either 
because of funding considerations, because they weren't 
invited, because it was too complicated. Just don't know. And 
that hasn't been the case everywhere. As I said, it is uneven. 
Some places there has been better outreach to the locals.
    But they need to be included. And if there are incentives 
that need to be put in place to get them included, that is very 
important, because we can't have this confusion and discord in 
the middle of a spill, where the local officials are 
recommending that we power-wash marshes, when that has been a 
known inappropriate response technology for years and years, 
and should have been worked out in the contingency planning 
process well in advance, so that you know that when oil gets 
into the marsh you leave it alone, you don't power-wash it out 
of there and do more damage than just by leaving it alone.
    Mr. Larsen. Yes, right. Admiral Z, I want to talk a 
little--just a question about RMI. The JIT report concludes the 
Republic of the Marshall Islands, the flag state registry 
failed to meet its responsibilities to ensure the safety of 
Deepwater Horizon, and also failed to properly monitor the two 
recognized organizations that it contracted with for verifying 
the compliance with ISM codes.
    Admiral Papp, in his final action memo in response to the 
JIT report, however, finds that more fault lies with the IMO 
guidelines, rather than RMI's Government or the recognized 
organizations.
    That being the case, what specific changes does the Coast 
Guard intend to pursue within the IMO's flag state 
implementation subcommittee to, for lack of a better term, 
tighten the IMO guidelines to ensure proper vigilance by the 
flag administrations and by recognized organizations?
    Admiral Zukunft. We have since met with RMI and with DNV 
and ABS, one the flag state and two of the recognized 
organizations that were cited in the JIT report.
    Mr. Larsen. Just--Det Norske Veritas and American Bureau of 
Shipping.
    Admiral Zukunft. And American Bureau of Shipping.
    Mr. Larsen. Right.
    Admiral Zukunft. As a follow-on, you know, that impelled us 
to invoke this high-risk MODU program. Now, would Deepwater 
Horizon have been identified as a high-risk MODU at the--you 
know, prior to this event? In all likelihood, probably not. But 
at least it does provide us a better targeting approach of 
foreign activity within our EEZ that not just meets the IMO 
code, but also meets U.S. standards, as well. So that was 
really the impetus behind us invoking that high-risk MODU 
program.
    Mr. Larsen. Can I ask you to clarify for me? Would this--
identifying the high-risk MODUs, is that--would that be an 
additional set of steps, or would that be a replacement?
    Admiral Zukunft. That would be in addition to. And this is 
a policy, not a regulation.
    Mr. Larsen. Yes, good. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. LoBiondo. Admiral Z, you stated we don't want to do 
research and development in the midst of a response, which I 
think we certainly understand your point and agree. But in the 
20-year lull between the Exxon Valdez and this Deepwater 
Horizon, very little, I think, oil prevention research and 
development was done.
    Now that the response phase is over to this particular 
disaster, do you have any idea, or can you tell us what 
research and development is being done, so that we don't find 
ourselves in the year 2030 and we're going to have to learn on 
the job again?
    Admiral Zukunft. Clearly, we need not look any further than 
dispersants. And what is--especially the impact of sub-sea 
application of dispersants on the ecosystem. I will say that 
that did launch a--the most expansive--the sub-sea monitoring 
program that I worked with NOAA to implement, to determine if 
there was any recoverable oil anywhere on the sea floor 
throughout the Gulf of Mexico, an armada of ships out there 
doing sampling on the sea floor and in the water columns. So--
but we didn't have good technical awareness of what the impact 
of all of that dispersant applied at 5,000 feet would be.
    There will always be challenges in mechanical removal of 
oil. During this oil spill we had 17 consecutive days where 
wind and weather prohibited us from using skimmers or doing in 
situ burning because of the sea state. And so when you lose 
that mechanical ability, what other tools do you have? And it 
really comes down to, you know, chemical dispersant, and to be 
able to mitigate that before that oil works its way into these 
very sensitive wetlands.
    But that would be one of the key areas is, you know, one, 
what is the baseline within the Gulf of Mexico of the 
ecosystem, recognizing there are natural seepages that take 
place, the microbial activity, because we had an oil budget, 
and that at the end of that there is a certain amount of oil 
remaining, but we don't have a good model to predict, you know, 
what the degradation rate of that remaining oil would be, and 
at what point does it no longer cause harm to the environment.
    So, those are some of the, entering into a spill, 
information that I could have benefitted from, as we looked at 
the day-to-day decisions over dispersants, and what the long-
term impact of that might be.
    Mr. LoBiondo. Rick, do you have anything else?
    Mr. Larsen. No.
    Mr. LoBiondo. OK. I would like to thank the panel very much 
for being here today, for your work on this issue.
    Admiral Z, we will look forward to your responses to those 
several areas we asked about.
    I thank the Members for their participation, and the 
subcommittee stands adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

</pre></body></html>
